                                Office of Inspector General
                               Corporation for National and
                                        Community Service




                    EVALUATION OF
                   GRANT MONITORING
                     BY THE
             CORPORATION FOR NATIONAL
              AND COMMUNITY SERVICE

              OIG REPORT NUMBER 11-04




                       Prepared by:

                Office of Inspector General
               1201 New York Avenue, NW
                 Washington, DC 20525




This report was issued to Corporation management on October 15, 2010. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than April 15, 2011, and complete its corrective actions by October 15,
2011. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                         October 15, 2010


TO:            Robert Velasco II
               Chief Operating Officer

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-04, Evaluation of Grant Monitoring by the Corporation for National
               and Community Service


Attached is the final report for the above-noted Office of Inspector General evaluation of grant
monitoring activities conducted by Corporation staff in Fiscal Years 2008 and 2009. We
conducted this evaluation in accordance with the quality standards for inspections issued by the
Council of Inspectors General on Integrity and Efficiency.

The objective of this evaluation, which was conducted by OIG staff, was to determine whether
monitoring activities provided a reasonable basis for the Corporation’s findings and conclusions
regarding its grantees’ operations. Our specific focus was on financial and programmatic
monitoring practices for key Corporation grant programs.

Under the Corporation’s audit resolution policy, a final management decision on the findings and
recommendations in this report is due by April 15, 2011. Notice of final action is due by October
15, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:     William Anderson, Chief Financial Officer
        Kristin McSwain, Chief of Program Operations
        Marlene Zakai, Deputy Chief of Staff for Management
        Aleda Robinson, Director, Award Oversight and Monitoring
        Bridgette Roy, Administrative Assistant, Office of the CFO




                1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Background ........................................................................................................................ 1

Results of Evaluation ......................................................................................................... 2

Objective, Scope, and Methodology .................................................................................. 8

Acknowledgment ................................................................................................................ 8

Exit Conference .................................................................................................................. 9



Appendices


A: Detailed Summary of Findings: Fiscal Years 2008 and 2009
B: Corporation for National and Community Service’s Response to Draft Report
                                  EXECUTIVE SUMMARY

The Corporation for National and Community Service (Corporation) uses a variety of
monitoring activities to assess the extent to which its grantees and sponsor
organizations are carrying out and overseeing their Corporation-funded programs. The
Office of Inspector General (OIG) examined the monitoring activities conducted by the
Corporation in Fiscal Years (FY) 2008 and 2009 to determine whether the Corporation
maintained adequate support for its findings and conclusions. We reviewed the
monitoring activities to determine if they were conducted in accordance with Corporation
policies and procedures. We also interviewed Corporation staff responsible for
conducting monitoring activities to identify any areas that they felt needed improvement,
and would aid in conducting monitoring in a more efficient and effective manner.

Using the Corporation’s monitoring plans from FYs 2008 and 2009, we selected 70
monitoring records (35 from each fiscal year) to review during our evaluation. They
included five records that were deemed by the Corporation to be inactive throughout the
fiscal year. The Corporation defines a record as “inactive” if there are extenuating
circumstances that requires the Corporation to defer an activity to the next fiscal year or
to cancel an activity. Corporation staff must provide a brief reason explaining why the
activity was deferred or cancelled. We found that the Corporation was justified in
determining that the five planned monitoring activities would become inactive.

Of the remaining 65 records reviewed, we found that the Corporation had adequate
documentation and correspondence (i.e notification, follow-up, and or final letters) to
support 51 of the monitoring records. For the remaining 14 records, we found
exceptions to the Corporation’s implementation of Policy AOM-2006-001, Monitoring
Activity Documentation in the eGrants Monitoring Module, and its Monitoring Planning
Guidance and Implementation Strategy. These exceptions included: notifications and
final letters that were not provided to grantees; final and follow-up letters that were not
entered into eGrants within the timelines required by Corporation policy; some
documentation that was not available in eGrants to support the monitoring findings and
conclusions; and changes that were made to planned monitoring activities without
updating and providing justifications in eGrants.

In our interviews with Corporation staff, we found that some program officers were
responsible for reviewing financial requirements of grantees during their monitoring, yet
they had either inadequate or no formal training for this task. We acknowledge the
Corporation’s efforts, begun in September 2009, to provide financial training to its
program officers; however, this training was limited to AmeriCorps VISTA and Senior
Corps staff. We believe such training would be beneficial for all Corporation staff who
perform monitoring, and would also assist program staff in identifying weaknesses in a
grantee’s fiscal operations.


BACKGROUND

The Corporation, which is responsible for ensuring its resources are appropriately
managed, conducts monitoring visits to award recipients (e.g., grantees, cooperative
agreement recipients, and sponsors). In FY 2006, the Corporation moved to a
standardized monitoring system to help prioritize activities and allocations of resources
for appropriate levels of monitoring, oversight, and technical assistance.


                                            1
The Corporation monitors activities of its grantees and sponsor organizations to assess
their compliance with applicable Federal requirements and achievement of their program
goals and objectives. According to Policy No. AOM-2006-002, Oversight and Monitoring
Activities, dated July 27, 2006, the Corporation maintains a comprehensive approach to
conducting oversight and monitoring of its portfolio. It routinely monitors awards/grants
and provides training and technical assistance, as necessary. The Corporation-wide risk
assessment serves as the basis for its annual monitoring plan, which includes the
following activities:

       1.    On-site compliance visits
       2.    Follow-up compliance visits
       3.    State Standards Reviews
       4.    On-site training / Technical Assistance visits
       5.    Targeted / issue-based site visits
       6.    Opportunity visits
       7.    Desk reviews
       8.    Drawdown analyses

These activities are conducted by Corporation staff for select awards throughout the
fiscal year; however, they are not conducted for every award each year.

Individual program and grants offices have their own monitoring policies, guidelines, and
tools/instruments to help guide the conduct of monitoring activities. Monitoring protocols
vary in format, detail and purpose, depending on the nature and intensity of the activity.
Corporation policy also requires that staff must document oversight and monitoring
activities as appropriate for the type of activity, and in accordance with Corporation or
program-specific policy and procedures. Corporation Policy AOM-2006-001 provides
requirements for documenting monitoring activities in the eGrants Monitoring Module.
The eGrants application is a web-based system that includes a module for tracking
planned monitoring activities of Corporation grantees.

The Corporation’s Recovery Act Plan, developed in response to the American Recovery
and Reinvestment Act of 2009 (ARRA), includes the requirement to monitor all ARRA
grantees. The plan calls for the Corporation to monitor all awards made with Recovery
Act funding following the same established policies and protocols that are used for the
oversight and monitoring of all other Corporation awards.


                                  RESULTS OF EVALUATION

Finding 1.    Corporation policy was not consistently followed by program and
              grant officers.

Of the 14 monitoring records with exceptions noted, we identified the following:

       1. Notification and final letters were not provided to grantees (5 records);
       2. Final letters and follow-up letters were not submitted within timelines required
          by Corporation policy (3 records);
       3. Some documentation was not available in eGrants to support the monitoring
          findings and conclusions (2 records); and


                                               2
       4. Changes were made to planned monitoring activities without updating and
          providing justifications in eGrants (4 records).

We have identified the specific monitoring activities for both fiscal years in Appendix A.

Notification and final letters were not provided to grantees

   The Corporation provided the following reasons explaining why notification and final
   letters were not provided to five grantees:

          Final letters could not be located in eGrants;
          Notification of an upcoming monitoring visit was communicated verbally to the
           grantee;
          A formal final letter was not issued because a verification of completed
           actions was discussed verbally with the grantee; and
          A formal final letter was not available because a follow-up training and
           technical assistance (T/TA) visit was conducted to verify completion of
           required actions resulting from the monitoring visit.

   According to Corporation Policy AOM-2006-001, Monitoring Activity Documentation
   in the eGrants Monitoring Module, key correspondence includes notification of an
   upcoming monitoring activity, notification of any required follow-up actions (when
   applicable), and notification of completed monitoring activities (including required
   follow up, when applicable). The policy also states that for T/TA events only, letters
   are required for baseline monitoring plan T/TA activities. Baseline monitoring plan
   activities are those identified via the monitoring planning assessment process.

   Without such records, neither the Corporation nor the grantee can track the results of
   monitoring, the actions taken as a result of the findings, and the resolution of the
   issues raised.


Final letters and follow-up letters were not submitted within timelines specified in
Corporation policy

   We found that required letters were not submitted according to the timelines
   specified in the Corporation’s policy because:

          There were no follow-up actions required to be completed by the grantees;
          One program officer attended the Corporation’s national conference, then
           took annual leave, resulting in a four-month delay in providing monitoring
           feedback; and
          There was a lack of understanding by the program officer that letters should
           have been entered in eGrants.

   Corporation Policy AOM-2006-001, Monitoring Activity Documentation in the eGrants
   Monitoring Module, sets forth the following timeframes for monitoring-related events:




                                             3
                         Monitoring Correspondence Timeframes
                             Notification             Follow Up /               Final / Complete              “Actual
                               Letter                  Actions                       Letter                     Date”
                                                    Required Letter                                          of Activity
                                                      (when applicable)
                            eGrants Text Field:       eGrants Text Field:         eGrants Text Field:
                           Notification (Letter)   Feedback/Actions Reqd       Final/Completed (Letter)
                                                   (Letter)


        On-site             < 30 Days >               < 30 Days >                 < 30 Days >
       Compliance
          Visit            Send letter at          Send letter within          Send letter within          Date of first
                           least 30                30 calendar days            30 calendar days            day of on-site
      Follow-up           calendar days           after the visit             after:                      visit
       Compliance          prior to visit
         Visit                                     Note: This                     the visit (no
                           If visit is             applies only when               follow up
           Targeted /     scheduled less          the grantee is                  actions were
           Issue-based     than 30 days            required to                     required)
            Site Visit     prior – send            complete follow
                           letter within 5         up actions within              the grantee
           On-site        business days           a specified                     completed the
           Training /      of scheduling           timeframe                       follow up
           Technical       the visit                                               actions (if
           Assistance                                                              actions were
           (T/TA) *                                                                required)

* T/TA visits only: letters required for baseline monitoring plan T/TA activities; letters optional for additional T/TA
     monitoring activities.



   A delay in notifying grantees of the results of monitoring events can cause grantees
   to continue operating in a manner that may not adhere to Corporation requirements.

Documentation for two records was not available to support findings and
conclusions

   For one monitoring activity we tested from the FY 2008 plan, documentation
   supporting the findings and conclusions identified could not be provided because the
   Corporation’s program officer had retired and the documentation was no longer
   available. The grantee was also not able to provide the information because its
   computer containing the data was inoperable since the monitoring visit was
   conducted. These two events prevented the Corporation from accessing the


                                                          4
  documentation. While the grantee does have documentation to demonstrate that it
  made modifications to its operations as requested, a paper copy of the response
  letter could not be located.

  In the second case, a monitoring activity conducted in FY 2009, we found that
  although no compliance issues resulted from a desk review of the grantee, the
  program officer’s documentation could not be located because, once again, the
  officer had left the Corporation. In discussions with AmeriCorps State and National
  management, they informed the OIG that they will change their monitoring template
  to include the type (or name) of documentation reviewed and, if appropriate, a copy
  of that documentation will be scanned to a monitoring folder on the Corporation’s
  shared computer drive.

  Policy AOM-2006-001, Monitoring Activity Documentation in the eGrants Monitoring
  Module, states:

     “Documentation must be maintained in hard copy or electronic files and must be
     filed and organized, clearly labeled, and readily accessible. If you are located in
     a multi-person office, monitoring documentation should be accessible by others
     in your office. This is to support any needed access to the information when you
     are out of the office. Original correspondence that you send via hard copy or
     email should also be maintained in the hard copy or electronic file, as
     appropriate.”

  Without proper documentation, Corporation management may not be able to assess
  the adequacy of monitoring.

Changes were made to planned monitoring activities without updating and
providing justifications in eGrants

  For two monitoring activities that occurred in FY 2008, the activity (training and
  technical assistance) did not occur as scheduled in the Corporation’s baseline
  monitoring plan, nor was a justification posted in eGrants to explain why the event
  did not occur. Corporation staff stated that the visit was scheduled on a time-
  permitting basis, as it was planned in connection with a State Commission meeting.
  This does not appear to meet the requirements of a baseline T/TA monitoring
  activity. According to Policy AOM-2006-001, as stated in the chart above, letters are
  required for baseline monitoring plan T/TA activities. These letters include a
  Notification letter, Follow Up / Actions Required letter (if required); and a final letter.

  For a monitoring activity in FY 2009, the Corporation stated that its oversight in
  properly updating the monitoring record in eGrants was due to a misunderstanding
  by training officers of their ability to access and change the original record. During
  our evaluation, the record was corrected in eGrants to reflect the actual activity, and
  the reason it was changed from a compliance visit to an opportunity visit.

  For another activity in FY 2009, a monitoring event was rescheduled, but the eGrants
  record was never updated. The record was updated to inactive status during our
  testing.




                                            5
   According to the Corporation’s Monitoring Planning Guidance and Implementation
   Strategy, only in the case of extenuating circumstances can a monitoring activity be
   deferred or cancelled for a fiscal year.

   Corporation management may not have adequate information on the status of all
   monitoring activities if timely updates to the plan are not made.


Recommendation One

We recommend that the Corporation ensure that program staff:

   1a.   Document required notification, follow-up, and final letters;

   1b.   Communicate results from monitoring for grantees within established
         timeframes;

   1c.   Maintain documentation to support findings and conclusions; and

   1d.   Update monitoring records and provide justifications in eGrants when changes
         are made.


Corporation Response

The Corporation agrees with the recommendation, and is reviewing its eGrants
Monitoring Activities Module guidance to ensure clarity. The Corporation is continuing to
make improvements to ensure staff understands the monitoring requirements and how
to properly document information in eGrants. Its goal is to simplify processes while
increasing documentation capabilities in the database. The Corporation expects staff to
issue monitoring result letters within established timeframes, and will review its policy to
ensure the language and intent are clear for instances when letters must be issued
beyond the 30-day timeframe.

OIG Comment

We acknowledge that there may be infrequent occasions when monitoring
documentation cannot be promptly entered into eGrants. However, we believe that the
30-day requirement is sufficient time to accomplish this, and encourage management to
emphasize this benchmark in future monitoring training sessions.


Finding 2.   Corporation program officers responsible for reviewing grantee
             financial requirements had inadequate or no formal training.

   We conducted interviews with 20 Corporation staff, 14 of whom were program
   officers, between February 1, 2010, and February 12, 2010. We found that 10 of
   those program officers are responsible for reviewing financial requirements of
   grantees while conducting monitoring activities. Two program officers had received
   training on the financial requirements at the Philadelphia Field Financial
   Management Center (FFMC) in September 2009. One program staff member stated


                                             6
    that training was provided on the financial aspects of grants during a training event
    held two years ago by Walker and Company, then a T/TA provider.

     The following are excerpts from our staff interviews:

           Program Officer No. 1 stated that he had asked for training on the financial
            portion of grant monitoring, but had not received any to date.
           One grants management specialist stated that there should be more training
            for the program officers on the financial portion of the monitoring tools.
           Program Officer No. 2 stated that he attended the FFMC training and felt it
            was beneficial for NY-21 staff members, and could be a good refresher
            course for NY-32 staff.
           Program Officer No. 3 felt that there should be a refresher course given to the
            program officers to keep up with the changing requirements of Corporation
            grants.
           Program Officer No. 4 stated that she felt intimidated by the financial portion
            of the monitoring tool. She stated that the tool outlines what source
            documentation to review; however, without the proper training, she is not sure
            if the data she is reviewing is sufficient. She had not received any training
            other than that held in September 2009.
           Program Officer No. 5 stated that the financial portion of the Senior Corps
            monitoring tool could be difficult to understand if someone did not know what
            to look for and did not have a nonprofit background. She would like the
            Corporation to provide training on the financial requirements to new staff
            members.
           Program Officer No. 6 stated that she has learned by the “seat of her pants”.
            She explained that she has been learning as she conducts the monitoring.
            She would like training on the financial portion of the monitoring tool,
            specifically as it relates to tracing source documentation to accounting
            system entries.
           Program Officer No. 7 stated that she did not feel confident in conducting the
            monitoring of financial data because she feels that she could be held liable
            for not covering a particular area. She would like training on how to review
            general ledgers and the distinct accounting codes assigned to a financial
            accounting system.
           Program Officer No. 8 expressed interest in conducting joint visits consisting
            of a program and grants officer. He stated that due to the workload of the
            grants office, it is not always feasible to conduct the joint visits. He would
            also like to receive training on the fiscal component of the tool to ensure that
            he is identifying any “red light” areas regarding a grantee’s fiscal operations.

According to the Internal Control Standards issued by the General Accounting Office
(GAO) in November 1999, management should ensure that employees’ skill needs are
continually assessed, and that the organization is able to obtain a workforce that has the
required skills necessary to achieve organizational goals. Training should be aimed at
developing and retaining employee skill levels to meet changing needs.

1
  Corporation Human Resources System (CHRS) Policies define NY-2 staff as Entry Level
  Administrative/Professional, Senior Technician.
2
  CHRS Policies define NY-3 personnel as Full Performance Level Administrative Professional


                                                  7
We have found that the Corporation’s monitoring plans rely heavily on program officers
to conduct the fiscal/financial portion of grantee reviews.          Our interviews with
Corporation staff revealed that a grant officer is not able to assist a program officer on
every monitoring visit. In addition, a grant officer’s workload in the Office of Grants
Management can consist of more than 30 grantees, and can exceed 100 grantees at the
FFMC. As a result of this demanding workload, we believe that program staff may not
always have ample time or expertise to identify weaknesses in various grantees’ fiscal
operations.


Recommendation Two

We recommend that the Corporation develop a cross-training program for grants and
program officers, with increased emphasis on fiscal operations.

Corporation Response

The Corporation agrees with the recommendation. Training sessions have been
conducted at the FFMC in Philadelphia and at Washington Headquarters, and a third
session is planned for 2011. Monitoring training is being developed and delivered in
other program offices, and the Corporation is finalizing a plan to ensure that all program
officers receive fiscal training. A significant amount of training funds were allocated in
2010 to develop on-line training modules to address agency-wide monitoring training
needs.

OIG Comment

The Corporation’s comments are responsive to the recommendation. When fully
implemented, the plans put forth in its management response (see Appendix B for the
complete response) should provide a satisfactory solution to the weaknesses noted in
this and prior OIG reports.


OBJECTIVE, SCOPE, AND METHODOLOGY

We conducted this evaluation in accordance with the quality standards for inspections
issued by the Council of Inspectors General on Integrity and Efficiency. Those
standards require that we plan and perform the evaluation by the collection of
information and data that will be focused on the organization, program, activity, or
function being inspected, consistent with the inspection objectives, and will be sufficient
to provide a reasonable basis for reaching conclusions.

The objective of this evaluation, conducted by OIG staff, was to determine whether
Corporation monitoring activities provide a reasonable basis for the Corporation’s
findings and conclusions regarding its grantees’ operations. The scope was limited to
monitoring activities conducted in FYs 2008 and 2009, and the focus was on financial
and programmatic monitoring practices for key Corporation programs.




                                            8
We selected a sample of monitoring records and interviewed Corporation staff members
who had conducted monitoring activities during either of the fiscal years. We also
interviewed managers from each Corporation program and grants office.

ACKNOWLEDGMENT

The OIG has long regarded monitoring as a recurring management challenge and an
area needing improvement, based on results of OIG audits of grants, programs, and
operations.     Previous annual financial audits of the Corporation, performed by
independent auditing firms, cited numerous monitoring deficiencies that resulted from
audit tests of relatively small samples of transactions. Collectively, the pervasiveness of
these deficiencies was characterized by the auditors as significant internal control
weaknesses.

We acknowledge that the Corporation has made substantial progress in addressing the
major monitoring challenges reported in prior years. We believe this report, which
stresses the need for enhanced training of monitoring personnel, but does not contain a
significant number of other deficiencies, also provides evidence of the improvements
Corporation management has made.


EXIT CONFERENCE

We conducted an exit conference with Corporation representatives on June 8, 2010, and
provided them a draft report to elicit their comments. The Corporation’s response to the
draft report is included in its entirety at Appendix B.


This report is intended for the information and use of Corporation management, the OIG,
and the U.S. Congress. However, this report is a matter of public record and its
distribution is not limited.




                                            9
                         APPENDIX A
_______________________________________________________________
              DETAILED SUMMARY OF FINDINGS
                 FISCAL YEARS 2008 AND 2009
                    Detailed Summary of Findings

                                      FY 2008
     Program                   Grantee                           Details of Findings

AmeriCorps VISTA   Frostburg University                 A final letter was not provided to the
                                                        grantee after follow-up action had been
                                                        completed.
Senior Corps       Wayne County Action Program,         There was no written notification letter in
                   Inc.                                 eGrants for this monitoring activity. This
                                                        was an on-site training and technical
                                                        assistance visit (T/TA), which was
                                                        considered a baseline monitoring activity.
AmeriCorps State   Volunteer NH                         A final letter was submitted to a grantee
                                                        approximately two months after completion
                                                        of a monitoring visit.
Senior Corps       Porter Leah Children Center          Grantee      was      notified  of    findings
                                                        approximately four months after monitoring
                                                        visit was completed.
Senior Corps       Green Mountain Community             Program officer could not provide all
                   Network, Inc.                        documentation       reviewed      during     a
                                                        monitoring     activity     for a    grantee.
                                                        Specifically, the Corporation could not
                                                        provide the grantee’s response to issues
                                                        noted during the activity.
AmeriCorps VISTA   Older Persons Action Group           Grantee was not monitored according to
                                                        original monitoring plan. It was determined
                                                        during the annual monitoring assessment
                                                        process that this grantee should undergo
                                                        an onsite training and technical assistance
                                                        visit. The planned visit did not occur, nor
                                                        was a justification included in eGrants to
                                                        explain why it did not occur.
AmeriCorps VISTA   Big Brothers Big Sisters of Alaska   Grantee was not monitored according to
                                                        original monitoring plan. It was determined
                                                        during the annual monitoring assessment
                                                        process that this grantee should undergo
                                                        an onsite training and technical assistance
                                                        visit. The planned visit did not occur, nor
                                                        was a justification included in eGrants to
                                                        explain why it did not occur.




                                            1
                        Detailed Summary of Findings

                                           FY 2009
     Program                       Grantee                          Details of Findings

AmeriCorps VISTA       One Church, One Child of             Program      officer    did   not    have
                       Maryland                             documentation to show that a notification
                                                            letter was provided to the grantee.
Learn and Serve        Morehouse School of Medicine         A formal final letter was not provided to
America                                                     the grantee, as required by Corporation
                                                            policy.
Senior Corps           Senior Resources Solution            A formal final letter was not provided to
                                                            the grantee, as required by Corporation
                                                            policy.
Senior Corps           Triton College                       The feedback/follow-up letter and the
                                                            final letter were not issued in the
                                                            timeframes identified in Corporation
                                                            policy.
AmeriCorps State       North Carolina Commission on         We found that although no compliance
                       Volunteerism & Community             issues resulted from the desk review, the
                       Service                              documentation to support conclusions
                                                            made from the review could not be
                                                            located.
Training and           Aguirre International, Division of   The monitoring activity was changed
Technical Assistance   JBS International, Inc.              from a compliance visit to an opportunity
                                                            visit due to the lack of available staffing
                                                            resources. However, the monitoring
                                                            record was not updated to reflect this
                                                            change from the original planned
                                                            monitoring activity.
AmeriCorps National    National Association of              A monitoring event was rescheduled, but
                       Community Health Centers, Inc.       the eGrants record was never updated.




                                                  2
                         APPENDIX B
_______________________________________________________________
             CORPORATION FOR NATIONAL AND
                   COMMUNITY SERVICE’S
              RESPONSE TO THE DRAFT REPORT
October 1,2010


TO:              Stuart Axenfeld, Assistant Inspector General for Audit

FROM:            Aleda Robinsok,J'.Director, Award Oversight and Monitoring

CC:             Kristin McSwain, Chief of Program Operations
                William Anderson, Chief Financial Officer
                Rocco Gaudio, Deputy Chief Financial Officer for Grants
                Peg Rosenberry, Director, Office of Grants Management
                Claire Moreno, Audit Liaison, Office of Grants Management
                Tamara White, Program Analyst, Award Oversight and Monitoring
                Bridgette Roy, Administrative Assistant, Office of the CFO

SUBJECT:        CNCS Response to the OIG Draft Report on the Evaluation of Grant Monitoring by
                the Corporationfor National and Community Service


Thank you for the opportunity to comment on the OIG Draft Report, Evaluation of Grant
Monitoring by the Corporationfor National and Community Service, issued September 2,2010.
This response is the Corporation's draft management decision. The OIG's report is very helpful
as the Corporation continues to implement actions aligned with the OIG's recommendations.

The Corporation welcomes this evaluation, in follow up to the 01G Study of Federal Assistance
Tools in 2008, and is pleased that this evaluation acknowledges the Corporation has made
significant progress in addressing prior monitoring challenges and does not identify any
significant deficiencies. The Corporation is also pleased that this evaluation affirms that current
CNCS priorities for continued improvement of monitoring, such as enhanced training for grants
management staff, are properly focused, as recommendations put forth by the OIG align with
priority efforts already in progress at the Corporation at the start of this evaluation.

Regarding the OIG's two specific recommendations, the Corporation plans to address them as
follows.

Recommendation 1: We recommend that the Corporation ensure that program staff:

1a.   Document required notification, follow-up, and final letters;
1b.   Communicate results from monitoring for grantees within established timeframes,'
1c.   Maintain documentation to support findings and conclusions; and,
1d.   Update monitoring records and provide justifications in eGrants when changes are made.

Management Decision: The Corporation agrees with the recommendations and is reviewing
policy AOM-2006-01-2009-3, Monitoring Plan Activity Documentation, to ensure staff fully
understand documentation requirements and know the expectations for issuing letters to grantees.
We also want to facilitate consistency among staff in applying Corporation standards and
expectations for documentation. Further, the Corporation is reviewing its eGrants Monitoring
Activities Module guidance and other documentation resources to ensure clarity and is developing
additional training on available resources, documentation requirements, and use of the eGrants
monitoring module. While the Corporation has developed and issued a variety of resources
previously (e.g., documentation requirements, eGrants guidance, training sessions, newsletter
highlights), we are continuing to re-evaluate our approach to make improvements and to ensure
staff understand the requirements and know how to properly document information in eGrants.

Additionally, the Corporation is exploring possible other alternatives to improve documentation
capabilities in eGrants. The Corporation's goal is to simplify processes, while also increasing
documentation capabilities in eGrants.

Regarding Recommendation 1b specifically, the report identifies instances when letters were not
issued to grantees within established timeframes and recommends staff communicate results to
grantees within specified timeframes. The report does not, however, acknowledge that the
Corporation recognizes that there are instances when letters to grantees cannot be issued within the
established 30-day timeframe. Corporation policy addresses and allows for such instances, as
discussed during the final stages of the evaluation. The Corporation expects staff to issue letters
within established timeframes and will review the policy to ensure the language and intent is clear
regarding instances when letters must be issued beyond the established 30-day timeframe.

Recommendation 2: We recommend that the Corporation develop a cross-training program for
grants and program officers, with increased emphasis onjiscal operations.

Management Decision: The Corporation agrees with the recommendation and established
training as a priority beginning in 2009. Previous to that decision, training had been delivered to
varying degrees via different methods across the various offices and the Corporation recognized
the need to improve its training and ensure all staff receive adequate training. The Office of Field
Liaison (OFL), in close coordination with other CNCS offices, developed a comprehensive in-
person compliance monitoring training curriculum in 2009 and delivered the first training session
in Philadelphia, Pennsylvania in September 2009. The second session was held in Washington,
DC in September 2010, and a third session is planned for 2011. OFL also delivered a
management-level monitoring training in New York City in 2010 for all state office directors who
attended the national conference. These training sessions support OFL's commitment to ensure all
140 OFL program staff members complete in-person monitoring training. Monitoring training is
also being collaboratively developed and delivered in other program offices. Additionally, the
Corporation is finalizing a plan to ensure all program officers receive fiscal training.

Further, the Corporation allocated a significant amount of training funds in 2010 to develop on-
line training modules to help address agency-wide monitoring training needs. Development is
underway. As part of the development and implementation of these new training modules, the
Corporation will identify requirements regarding which staff positions will be required to
complete each of the modules and the timing for completion.

Again, the results of this evaluation have been invaluable and help affirm the Corporation is
focused on proper priorities to improve the agency's oversight and monitoring of its programs.




CNCS Response: OIG Draft Report on the Evaluation of Grant Monitoring by CNCS              Page 2 of2
